Report No. DODIG-2012-107                      July 9, 2012




    Defense Finance and Accounting Service Needs to
      Improve the Process for Reconciling the Other
    Defense Organizations' Fund Balance with Treasury
Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (571) 372-7469.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (571) 372-7469, or by mail:

                      Department of Defense Office of Inspector General
                      Office of the Deputy Inspector General for Auditing
                      ATTN: Audit Suggestions/13F25-04
                      4800 Mark Center Drive
                      Alexandria, VA 22350-1500




Acronyms and Abbreviations
ALC                           Agency Location Code
AM&C                          Accounts Maintenance and Control
CCAS                          Columbus Cash Accountability System
CMR                           Cash Management Report
DFAS                          Defense Finance and Accounting Service
DISA                          Defense Information Systems Agency
FBWT                          Fund Balance with Treasury
IDARRS                        Indy Detailed Audit Research and Retrieval System
ODO                           Other Defense Organizations
OIG                           Office of Inspector General
SBR                           Statement of Budgetary Resources
SOI                           Statement of Interfund
SOT                           Statement of Transactions
TBO                           Transactions-by-Others
TI                            Treasury Index
                                    INSPECTOR GENERAL
                                     DEPARTMENT OF DEFENSE
                                     4800 MARK CENTER DRIVE
                                  ALEXANDRIA, VIRGINIA 22350-1500




                                                                                       July 9, 2012

MEMORANDUM FOR DIRECTOR, DEFENSE FINANCE AND ACCOUNTING SERVICE

SUBJECT: Defense Finance and Accounting Service Needs to Improve the Process for
         Reconciling the Other Defense Organizations’ Fund Balance with Treasury
         (Report No. DODIG-2012-107)

We are providing this report for your information and use. Defense Finance and Accounting
Service (DFAS) Indianapolis did not perform adequate transaction level Fund Balance with
Treasury reconciliations on approximately $141 billion disbursed and collected through 723
Other Defense Organizations’ appropriations. DFAS cannot support the adjustments it is making
to the financial statements, thereby impeding DoD’s ability to achieve audit readiness for the
Statements of Budgetary Resources by the end of 2014. We considered management comments
on a draft of this report when preparing the final report.

Comments on the draft of this report conformed to the requirements of the DoD Directive 7650.3
and left no unresolved issues. Therefore, we do not require any additional comments.

We appreciate the courtesies extended to the staff. Please direct questions to me at
(703) 604-8905 (DSN 664-8905).




                                             Amy J. Frontz
                                             Principal Assistant Inspector General
                                               for Auditing
Report No. DODIG-2012-107 (D2010-D000FA-0097.001)	                                  July 9, 2012

               Results in Brief: Defense Finance and Accounting
               Service Needs to Improve the Process for
               Reconciling the Other Defense Organizations’
               Fund Balance with Treasury
                                                        was making to the ODO FBWT accounts, which
What We Did                                             caused amounts reported on the ODO financial
We evaluated the adequacy of audit trails and           statements to be unreliable. Unreliable financial
assessed the Other Defense Organizations                statements will impede DoD’s ability to achieve
(ODO) Fund Balance with Treasury (FBWT)                 audit readiness for the Statements of Budgetary
reconciliation processes. This is one in a series       Resources by the end of 2014.
of reports relating to the reconciliation of the
ODO FBWT accounts. The first report                     Unlike DFAS Indianapolis, DFAS Columbus
concluded that the Cash Management Report               was performing complete, transaction level
(CMR) was not complete or accurate.                     reconciliations. In addition, other than allowing
                                                        $16.1 million in Defense Information Systems
                                                        Agency disbursements and collections to remain
What We Found                                           unmatched for more than 4 years, DFAS
The Defense Finance and Accounting Service              Columbus provided evidence that it had
(DFAS) Indianapolis did not perform adequate,           adequate procedures for researching and
transaction level reconciliations of the ODO            resolving variances.
FBWT general ledger accounts. Specifically,
DFAS Indianapolis did not develop processes             What We Recommend
for:
                                                        The Director, DFAS Indianapolis, should
                                                        develop systems infrastructure, implement
   •	 retrieving the detailed transactions
                                                        systemic processes, and fully dedicate resources
      supporting the CMR in a timely manner,
                                                        for reconciling the ODO FBWT accounts.
   •	 matching the transactions supporting the
      CMR to the detailed transactions
                                                        The Director, DFAS Columbus, should
      recorded in the accounting systems, and
                                                        coordinate with the Director, Defense
   •	 researching, and if necessary, resolving          Information Systems Agency, and resolve the
      the variances between the two sets of             $16.1 million in transactions that have remained
      data.                                             unmatched since May 2007.
This occurred because DFAS Indianapolis did
not develop the systems infrastructure,
                                                        Management Comments and
implement systemic processes, or fully dedicate         Our Response
the necessary resources for performing                  We received comments from the Director,
transaction level reconciliations of the ODO            DFAS Indianapolis, and the Director, DFAS
FBWT accounts. DFAS Indianapolis reported               Columbus. All comments were fully responsive
that it was responsible for reconciling 723 ODO         to the recommendations. Therefore, no
appropriations with disbursements and                   additional comments are required. Please see
collections, totaling approximately $141 billion.       the recommendations table on the back of this
Without adequate FBWT reconciliations, DFAS             page.
Indianapolis could not support the adjustments it


                                                    i
Report No. DODIG-2012-107 (D2010-D000FA-0097.001)                   July 9, 2012

Recommendations Table

        Management                 Recommendations     No Additional Comments
                                  Requiring Comment              Required
Director, Defense Finance and                         1.a, 1.b, 1.c
Accounting Service Indianapolis

Director, Defense Finance and                         2
Accounting Service Columbus




                                        ii
Table of Contents
Introduction                                                                     1       


      Objectives                                                                 1

      Background                                                                 1       

      Review of Internal Controls                                                5


Finding. Defense Finance and Accounting Service (DFAS) Indianapolis 

Did Not Perform Adequate Fund Balance with Treasury Reconciliations              6


      DFAS Indianapolis Needs to Implement Processes for Performing Transaction      

       Level Fund Balance with Treasury Reconciliations                          7

      DFAS Columbus Developed Adequate Fund Balance with Treasury 

       Reconciliation Procedures                                                10 

      DFAS Columbus Must Reduce Risk of Inaccurate Adjustments                  12 

      Recommendations, Management Comments, and Our Response                    14 


Appendix. Scope and Methodology                                                 17 


Management Comments

      Defense Finance and Accounting Service                                    19 

Introduction
Objectives
Our objective was to assess the completeness and accuracy of the Cash Management Report
(CMR) and determine whether an adequate audit trail existed to enable a transaction level Fund
Balance with Treasury (FBWT) reconciliation. In addition, it was to assess the Other Defense
Organizations’ (ODO) FBWT reconciliation process. This is one in a series of reports relating to
the reconciliation of FBWT for the ODOs. In the first report, DoD Office of Inspector General
(DoD OIG) Report No. D-2011-098, “Defense Finance and Accounting Service Needs to
Improve Controls Over the Completeness and Accuracy of the Cash Management Report,”
August 15, 2011, we showed that the CMR was not complete or accurate. This second report
addresses the adequacy of audit trails and focuses on our assessment of the ODO FBWT
reconciliation processes.

Background
FBWT is an asset account that reflects the available budgetary spending authority of a Federal
agency. At the agency level, FBWT is similar to a corporation’s cash account. The following
are typical transactions that affect an agency’s FBWT general ledger account.

      Appropriations increase FBWT. They are the statutory authority to incur obligations and
       to make payments out of the U.S. Treasury. Appropriations are subject to limitations that
       restrict the period of availability of the funds.
      Collections increase FBWT. The three types of collections are receipts, reimbursements,
       and refunds.
      Disbursements reduce FBWT. They are payments to individuals or organizations for
       goods furnished or services rendered. Disbursements can also be made to transfer funds
       from one appropriation or fund to another.

As of September 30, 2010, DoD reported $85 billion in FBWT on the ODO General Fund
Balance Sheet. This represented 94.5 percent of the Total Intragovernmental Assets and
67.6 percent of the Total Assets reported on the ODO General Fund Balance Sheet. In addition,
the $85 billion reported in FBWT on the ODO General Fund Balance Sheet represented
approximately 8.3 percent of the Total Intragovernmental Assets and 4.4 percent of the Total
Assets reported on the DoD Agency-Wide Balance Sheet.

FBWT Reconciliation Requirements
The reconciliation of the FBWT account is a key internal control process to help identify
unauthorized and improperly recorded transactions. Timely and effective reconciliations
decrease the risk of fraud, waste, and mismanagement of funds and enhance the Government’s
ability to monitor budget execution. The Treasury Financial Manual, volume 1, part 2,
chapter 5100, “Reconciling Fund Balance with Treasury Accounts,” October 1999, requires that
agencies reconcile their FBWT accounts on a regular basis to ensure the integrity and accuracy
of financial report data. Specifically, an agency’s FBWT reconciliation must include a
comparison of transactions at a level of detail sufficient for specific identification of differences


                                                  1

to establish that the entity’s FBWT general ledger accounts and the corresponding balance in the
U.S. Treasury accounts are accurately stated.

DoD Regulation 7000.14-R, “Financial Management Regulation,” volume 4, chapter 2,
“Accounting for Cash and Fund Balances with Treasury,” December 2009, requires that agencies
explain any discrepancies between the FBWT in their general ledger accounts and the
corresponding balance in the U.S. Treasury accounts. In addition, I TFM 2-5100, “A
Supplement to the Treasury Financial Manual,” November 1999, prohibits agencies from
arbitrarily adjusting their FBWT accounts. Along with the I TFM 2-5100, the Financial
Management Regulation states that agencies should maintain detailed reconciliation worksheets
that, if needed, can be reviewed by management, auditors, or the U.S. Treasury.

The Other Defense Organizations
ODOs are entities authorized by the Secretary of Defense to perform select consolidated support
and service functions to the DoD on a Department-wide basis. These support and service
functions include providing military intelligence to the warfighter, defending the United States
against enemy ballistic missiles, providing the DoD enterprise infrastructure, and maintaining the
technological superiority of the U.S. military. The ODOs are included in U.S. Treasury
Index (TI) 97, an aggregate account that does not provide identification of the separate ODOs
sharing the U.S. Treasury account.1 Since there are 54 individual ODO general fund entities
comprising TI 97, each ODO fund balance in the U.S. Treasury accounts is indistinguishable
from the fund balances of the other ODOs. As a result, DoD uses unique codes (called limits) to
identify, manage, and report the financial activity of each individual ODO.

The Process for Reporting ODO Disbursements and Collections
The disbursing office is the activity responsible for processing disbursements and collections on
behalf of the ODOs. The disbursements and collections processed by each disbursing office are
compiled each month and reported by the accounting office on a Statement of Transactions
(SOT) to the applicable agency location code (ALC) responsible for reporting those transactions
to the U.S. Treasury.2 If the transactions were processed through the Interfund system, the
accounting office will report those transactions on a Statement of Interfund (SOI) to the
applicable ALC. The ALCs then compile all of the SOT and SOI files submitted by the
accounting offices each month and create a consolidated SOT and SOI file, which is then sent to
the U.S. Treasury. Because the U.S. Treasury only identifies the ODOs at the aggregate TI 97
level, the consolidated SOT and SOI files that are sent to the U.S. Treasury are rolled up to the
fiscal year, basic symbol level, which does not identify the specific ODO responsible for the
disbursements and collections.

In addition to sending the consolidated SOT and SOI files to the U.S. Treasury each month, the
ALCs also send the consolidated SOT and SOI files to the other ALCs. However, the data that is


1
  The U.S. Treasury maintains and reports FBWT at the appropriation level to include only the TI, fiscal year, and
basic symbol. The fiscal year designates the years the funds are available for obligation. The basic symbol
identifies the types of funds being used.
2
  The ALCs that report ODO disbursements and collections to the U.S. Treasury are DFAS Indianapolis, DFAS
Columbus, DFAS Cleveland, General Services Administration, and State Department.


                                                          2

sent to the ALCs is more detailed than what is reported by the U.S. Treasury. Specifically, the
data is at least at the limit level, which identifies the ODO responsible for the disbursements and
collections. DFAS Indianapolis uses the disbursement and collection data on the consolidated
SOT and SOI files sent by the ALCs, as well as funding data from the Program Budget and
Accounting System, to create the CMR. The CMR is similar to the account summary that a
commercial bank reports on a customer’s individual monthly bank statement. Unlike a monthly
bank statement, the CMR does not contain a list of the individual transactions charged to the
account during the month. Instead, the CMR reports summary amounts for each appropriation at
the fiscal year, basic symbol, limit level.

The ODOs use the amounts on the CMR as a control total for reconciling to the U.S. Treasury.
However, in DoD OIG Report No. D-2011-098, we showed that the amounts reported on the
CMR were not complete or accurate. Specifically, DoD OIG Report No. D-2011-098 found that
the CMR did not attribute approximately $10.5 billion in transactions to the ODO responsible for
reconciling and accounting for the transactions. While DFAS Indianapolis personnel stated that
they addressed approximately $10.2 billion of the variances, there is still a risk that the ODO
FBWT accounts are being reconciled to unreliable amounts. As a result, even with an adequate
FBWT reconciliation, the ODO FBWT accounts may still be unreliable.

Reconciling the ODO FBWT Accounts
While there are several ALCs processing disbursements and collections for the ODOs each
month, only DFAS Columbus and DFAS Indianapolis are responsible for administering finance
and accounting services for the ODOs. As a result, DFAS Columbus and DFAS Indianapolis are
each responsible for reconciling certain ODO FBWT accounts. However, because the ODOs are
unable to reconcile directly to the U.S. Treasury, DFAS Columbus and DFAS Indianapolis must
use different procedures when reconciling the ODO FBWT accounts than the entities that
possess their own U.S. Treasury account. In addition to a reconciliation of the amounts reported
by the U.S. Treasury to the amounts reported on the CMR at the fiscal year, basic symbol level,
a proper ODO FBWT reconciliation3 should include the following steps:

       reconcile the CMR to the consolidated SOT and SOI files submitted by the DFAS
        centers, the General Services Administration, and the State Department;
       reconcile the SOT and SOI files submitted by the DFAS centers, the General Services
        Administration, and the State Department to the disbursements and collections processed
        by the various disbursing offices;
       reconcile the disbursements and collections processed by the disbursing offices to the
        disbursements and collections reported in the accounting system. To have an adequate
        audit trail for the reconciliation of the ODO FBWT accounts, it is essential that DFAS be
        able to produce the transactions supporting the amounts on the CMR and the transactions
        supporting the amounts in the accounting system; and
       research, and if necessary, resolve any variances identified in the steps above.


3
 No authoritative source for reconciling the ODO FBWT account existed. Therefore, based on our review of the
DFAS procedures for processing, disbursing, and reporting ODO disbursement and collection transactions, we
constructed the FBWT reconciliation procedures detailed in this report.


                                                       3

In addition to the procedures for reconciling disbursements and collections listed on the previous
page, a proper ODO FBWT reconciliation should also include a reconciliation of the funding
issued by the Office of the Under Secretary of Defense (Comptroller) to the funding reported in
the ODO accounting system. By performing timely and effective reconciliations, the ODOs will
decrease the risk of fraud, waste, and mismanagement of funds and enhance the Government’s
ability to monitor budget execution. Additionally, it is necessary to perform the reconciliations
to support the adjustments being made to the ODO accounting records each month and to ensure
that material errors and irregular activity will be detected.

Report on Budget Execution and Trial Balance Adjustments4
Each accounting office supporting an ODO prepares a Report on Budget Execution and
Budgetary Resources (SF 133)5 based on the data reported in the ODO accounting records. The
accounting office submits the SF 133 to DFAS Indianapolis. DFAS Indianapolis compares
disbursement and collection amounts on the SF 133 to the corresponding amounts reported on
the CMR for that specific ODO. DFAS Indianapolis then processes an adjustment to force the
amounts reported on the SF 133 to agree with the disbursement and collection amounts reported
on the CMR. The flowchart in Figure 1 shows the SF 133 adjustment process.
                                  Figure 1. SF 133 Adjustment Process


          ODO                           Unadjusted                                    CMR
        Accounting                       SF 133               Compare
         Records



                                                              Undistributed                       Adjusted
                                                               Adjustment                          SF 133



Source: DoD OIG

DFAS Indianapolis stated that the accounting offices also prepare trial balances based on the data
in the ODO accounting records and submit the trial balances to DFAS Indianapolis. DFAS
Indianapolis compares disbursement and collection amounts on the ODO trial balances to
corresponding amounts on the adjusted SF 133s. DFAS Indianapolis processes adjustments to
force the amounts reported on the trial balances to agree with the amounts reported on the
adjusted SF 133s. DFAS Indianapolis consolidates all of the individual adjusted trial balances to
produce the ODO General Fund financial statements. The flowchart in Figure 2 on the following
page shows the trial balance adjustment process.



4
 We obtained the information in this section from DoD OIG Report No. D-2011-098. 

5
 The SF 133 provides the budgetary resources, obligation, disbursement, and collection data reported in the 

accounting records. 



                                                         4

                         Figure 2. Trial Balance Adjustment Process

         ODO
                                 Unadjusted                          Adjusted SF
       Accounting
                                   Trial            Compare             133
        Records
                                  Balance


                                                    Trial Balance                  Adjusted
                                                     Adjustment                     Trial
                                                                                   Balance




                                                                                    Financial
                                                                                   Statements



Source: DoD OIG

Impact of the FBWT Account on the Statements of Budgetary
Resources Initiative
On October 13, 2011, the Secretary of Defense, issued a memorandum, “Improving Financial
Information and Achieving Audit Readiness,” which directed the Under Secretary of Defense
(Comptroller) to develop a plan for achieving audit readiness for Statements of Budgetary
Resources (SBR) by the end of 2014. This initiative is vital to the Department’s plan for meeting
the congressional deadline for audit ready financial statements by 2017. However, because
FBWT is a key element of the SBR and the FBWT reconciliation is the key internal control over
the FBWT account, any deficiencies in the ODO FBWT reconciliation procedures will have a
significant impact on the Department’s probability of achieving audit readiness for the SBR by
the end of 2014 and becoming auditable by 2017.

Review of Internal Controls
DoD Instruction 5010.40, “Managers’ Internal Control Program (MICP) Procedures,”
July 29, 2010, requires DoD organizations to implement a comprehensive system of internal
controls that provides reasonable assurance that programs are operating as intended and to
evaluate the effectiveness of the controls. We identified internal control weaknesses in the
DFAS Indianapolis processes for reconciling the ODO FBWT accounts. Specifically, DFAS
Indianapolis did not develop the systems infrastructure, implement systemic processes, or fully
dedicate the necessary resources for performing transaction level reconciliations of the ODO
FBWT accounts. Therefore, DFAS Indianapolis could not provide the detailed transactions to
support the summary amounts reported on the CMR. We will provide a copy of the report to the
senior official responsible for DFAS internal controls.




                                               5

Finding. Defense Finance and Accounting
Service Indianapolis Did Not Perform Adequate
Fund Balance with Treasury Reconciliations
DFAS Indianapolis did not perform adequate, transaction level FBWT reconciliations on
723 ODO appropriations with disbursements and collections, totaling approximately
$141 billion. Specifically, DFAS Indianapolis did not develop processes for:

      retrieving the detailed transactions supporting the CMR control totals in a timely manner;
      matching the transactions supporting the CMR to the detailed transactions recorded in the
       accounting systems; and
      researching and, if necessary, resolving the variances between the two sets of data.

These deficiencies occurred because DFAS Indianapolis did not develop the systems
infrastructure, implement systemic processes, or dedicate adequate resources to support a
transaction level reconciliation of the ODO FBWT accounts. Since a FBWT reconciliation is the
key control over the FBWT account, DFAS Indianapolis’ inability to reconcile the ODO FBWT
accounts at the transaction level decreased the likelihood that material errors and irregular
activity would be detected and resolved in the normal course of business. Without a transaction
level FBWT reconciliation, DFAS Indianapolis cannot support the adjustments it made to these
FBWT accounts, which caused unreliable data to be reported on the ODO financial statements.
Unreliable financial statements will impede DoD’s ability to achieve audit readiness for the SBR
by the end of 2014, which is vital for the Department to meet the FY 2017 congressional
deadline for audit ready financial statements.

Conversely, DFAS Columbus performed adequate FBWT reconciliations on 318 ODO
appropriations with disbursements and collections, totaling approximately $41 billion. Although
it had to reconcile the ODO FBWT accounts to an incomplete and inaccurate CMR, DFAS
Columbus was able to:

      retrieve the detailed transactions supporting the CMR,
      match those transactions to the detailed transactions recorded in the accounting systems
       on a regular and recurring basis, and
      provide evidence, with the exception of $16.1 million in Defense Information Systems
       Agency (DISA) disbursements and collections, that it had adequate procedures for
       researching and resolving variances.




                                               6

DFAS Indianapolis Needs to Implement Processes for
Performing Transaction Level FBWT Reconciliations
DFAS Indianapolis did not have adequate processes in place for performing regular and
recurring reconciliations of the ODO FBWT accounts. Specifically, DFAS Indianapolis could
not readily provide the detailed transactions to support two separate nonstatistical samples that
we selected; including not being able to locate approximately $250 million in transactions for
                                       one of the samples. We only selected 15 current month and
        Without the detailed
                                       6 cumulative-from-inception appropriations for each
     transactions to support the
                                       nonstatistical sample; however, DFAS Indianapolis
      CMR amounts, the ODO
                                       reported that it is responsible for reconciling 723 ODO
   FBWT accounts could not be
                                       appropriations with disbursements and collections, totaling
        routinely reconciled.
                                       approximately $141 billion. Therefore, if DFAS were
required to retrieve the transactions supporting all of the appropriations it is responsible for
reconciling from the inception of the appropriations, it would require a significant effort that
would likely be unsustainable and at a substantial cost.

Without the detailed transactions to support the CMR amounts, the ODO FBWT accounts could
not be routinely reconciled. This caused amounts reported on the financial statements to be
unreliable and decreased the likelihood that material errors and irregular activity would be
detected and resolved in the normal course of business. Furthermore, without a listing of
transactions, we could not test the transaction level detail to ensure disbursements and collections
were being accurately attributed to the ODOs on the CMR.

DFAS Indianapolis Needs to Continue to Make Improvements in the
Process for Retrieving the Detailed Transactions
DFAS Indianapolis did not maintain a single repository of detailed transactions supporting the
amounts reported on the CMR. As a result, it had to manually retrieve the transactions from
several field-level systems that archive the transactions. To assist with the retrieval, DFAS
Indianapolis created the Indy Detailed Audit Research and Retrieval System (IDARRS).
However, throughout the course of the audit, IDARRS did not produce the desired results. When
tasked with retrieving the detailed transactions supporting the amounts reported on the CMR for
a single appropriation, DFAS Indianapolis personnel within the Departmental Reporting division
had to perform the following:

      retrieve the details from IDARRS for the appropriation and balance those details to the
       summary amounts reported on the CMR for the appropriation;
      conduct analysis on the details retrieved from IDARRS to identify the field-level systems
       where the applicable detailed transactions reside; and
      perform individual queries of each of the necessary field-level systems to retrieve the
       transactions. The queries are based on the specific appropriation, to include the fiscal
       year, basic symbol, and limit.

DFAS Indianapolis personnel performed the steps above for every appropriation. Therefore, it
was time consuming and manually intensive to research and retrieve the detailed transactions for
multiple appropriations. This was illustrated by the fact that DFAS Indianapolis personnel stated


                                                 7

that it could take several months to retrieve a single month’s disbursements and collections
processed by DFAS Indianapolis and reported to the U.S. Treasury.

DFAS Indianapolis Could Not Readily Provide the Detailed Transactions to
Support a Nonstatistical Sample of Appropriations (June 2010)
DFAS Indianapolis could not readily provide all of the disbursements and collections that it
processed for the ODOs in a single month. Therefore, we selected a sample in June 2010 to test
whether DFAS Indianapolis had procedures in place that would allow it to readily provide the
detailed transactions for specific appropriations. We selected 15 current month appropriations
with disbursements and collections, totaling $34.6 million, and 6 cumulative-from-inception
appropriations with disbursements and collections, totaling $1.7 billion, since the inception of
those specific appropriations. For the 15 current month appropriations, DFAS Indianapolis
personnel provided the detailed transactions that reconciled to the control totals in 9 business
days. For the 6 cumulative-from-inception appropriations, DFAS Indianapolis personnel
provided the transactions in 21 business days, which generally reconciled6 to the CMR control
totals. Additionally, DFAS Indianapolis personnel stated that within the 21 business days it took
to retrieve the detailed transactions supporting the cumulative-from-inception appropriations, 1
employee worked 10 full days to research and retrieve the detailed transactions.

Although DFAS Indianapolis was ultimately able to provide the transactions supporting the
samples we selected to demonstrate that the detailed transactions existed, the information was
not available in a timely manner. While we only selected 15 current month and 6 cumulative-
from-inception appropriations, DFAS Indianapolis reported that it was responsible for
reconciling 723 appropriations. Therefore, if DFAS were required to retrieve the transactions
supporting all of the appropriations it is responsible for reconciling from the inception of the
appropriations; it would require a significant effort that would likely be unsustainable and at a
substantial cost.

DFAS Indianapolis Could Not Readily Provide the Detailed Transactions to
Support a Nonstatistical Sample of Appropriations (January 2011)
During the audit, personnel within the Departmental Reporting division stated that while they
were attempting to retrieve the detailed transactions for the first sample, they acquired a better
understanding of the systems that retained the detailed transactions. As a result of the increased
knowledge in the process, DFAS Indianapolis personnel stated they improved the process for
retrieving transactions and would be able to provide the details supporting select appropriations
on the CMR more efficiently. To test the improvements DFAS Indianapolis made since
June 2010, we selected an additional sample in January 2011. The sample selected consisted of
15 current month appropriations with disbursements and collections, totaling $111 million, and
6 cumulative-from-inception appropriations with disbursements and collections, totaling
$4.1 billion. Although DFAS Indianapolis personnel were able to retrieve the voucher-level




6
 The detailed transactions that DFAS Indianapolis provided did not contain the detail to support $866,028 in
disbursements and collections.


                                                         8

support and improve their response time to only 4 days for the current month sample 7, DFAS
Indianapolis was unable to retrieve the disbursements and collections supporting the sample of
six cumulative-from-inception appropriations. DFAS Indianapolis personnel stated that they
were unable to fulfill the request because $250 million in transactions were not located in any of
the field-level systems they query to retrieve the details. DFAS Indianapolis personnel were
unable to provide the universe of the detailed transactions supporting the amounts reported on
the CMR because DFAS Indianapolis did not have the systems infrastructure that would allow it
to readily retrieve all of the detailed transactions supporting every open appropriation on the
CMR.

A proper reconciliation of an ODO FBWT account would require that the ODO disbursements
and collections processed by the disbursing offices are reconciled to the disbursements and
collections reported in the accounting system. Therefore, it is essential that DFAS Indianapolis
personnel can readily retrieve the transaction level details supporting the summary amounts
reported on the CMR. DFAS Indianapolis personnel acknowledged that the detailed transactions
need to be readily available and informed us that they intended to train additional personnel on
the querying process to enable more timely retrievals. While we applaud DFAS Indianapolis
personnel for understanding the importance of being able to retrieve the detailed transactions,
DFAS Indianapolis management must objectively assess its processes and plans to determine
whether it will fully support the ODO needs. This would include determining whether querying
single appropriations across multiple field-level systems will provide complete and accurate
information in a timely and cost-effective manner. Rather than applying additional resources to
a manually intensive process, DFAS Indianapolis should develop systems infrastructure that will
allow it to readily retrieve all of the detailed transactions supporting every open appropriation on
the CMR. Once the systems infrastructure that DFAS Indianapolis uses to retrieve the detailed
transactions is more efficient, DFAS Indianapolis should reassess the number of personnel it will
need to train and the amount of resources it will need to dedicate to the process for retrieving the
detailed transactions.

DFAS Indianapolis Needs to Develop a Process for Performing
Complete FBWT Reconciliations
The DFAS Indianapolis Accounts Maintenance and Control (AM&C) division was responsible
for performing the monthly FBWT reconciliations for most 8 of the ODO that DFAS Indianapolis
                                    was responsible for as the service provider. However,
  AM&C did not reconcile all of the
                                    when we reviewed the FBWT reconciliations performed
      transactions supporting the
                                    by AM&C each month, the reconciliations were not
  amounts on the CMR to all of the
                                    adequate because AM&C did not reconcile all of the
     transactions recorded in the
                                    transactions supporting the amounts on the CMR to all
       ODO accounting systems.
                                    of the transactions recorded in the ODO accounting


7
  DFAS Indianapolis formally responded to the request in 4 days. However, in the response, DFAS Indianapolis
stated that it only took 2 days to retrieve the current month disbursements and collections. The additional 2 days
were for DFAS Indianapolis to try and retrieve the details for the six appropriations that were cumulative-from­
inception.
8
  DFAS Indianapolis stated that AM&C does not perform reconciliations for the intelligence agencies or the
TRICARE Management Activity.


                                                          9

systems. Specifically, AM&C did not reconcile transactions that were disbursed, but not yet
posted to the accounting system. This occurred because DFAS Indianapolis did not have a
systemic process in place for:

    •	 retrieving all of the detailed transactions supporting the summary amounts for each
       appropriation on the CMR that AM&C is responsible for reconciling;
    •	 matching those transactions to the corresponding detailed transactions in the accounting
       systems on a regular and recurring basis; and
    •	 researching, and if necessary, resolving the identified variances.

To support the adjustments it is making to the ODO financial statements, DFAS Indianapolis
should implement a systemic process for reconciling the transactions supporting the amounts on
the CMR to the transactions in the ODO accounting systems on a monthly basis.

AM&C also did not perform adequate reconciliations of the ODO FBWT accounts because it did
not have adequate resources. While AM&C was responsible for performing the monthly ODO
FBWT reconciliations, AM&C personnel informed us that the reconciliations were not their
primary function. DFAS Indianapolis should assess the resources that will be needed to perform
complete, transaction level FBWT reconciliations for the ODOs each month and fully dedicate
those resources to the reconciliations efforts.

DFAS Columbus Developed Adequate FBWT Reconciliation
Procedures
Unlike DFAS Indianapolis, DFAS Columbus, using the Columbus Cash Accountability System
(CCAS), performed adequate FBWT reconciliations for the ODOs that it was responsible for as a
service provider. Specifically, DFAS Columbus maintained the detailed transactions to support
that it is performing all of the necessary steps for reconciling the ODO FBWT accounts on a
regular and recurring basis.

CCAS Reconciliation Procedures
DFAS Columbus reported that it was responsible for reconciling 318 ODO appropriations with
disbursements and collections totaling approximately $41 billion. To reconcile these FBWT
accounts, DFAS Columbus used a centralized PC-based tool called CCAS. CCAS employed a
three-tiered “top-to-bottom” approach, going from the CMR, which is the highest level summary
data, down to the detailed transactions that support the summary amounts on the CMR. The
reconciliations that took place at each of the tiers of the CCAS process and the DFAS Columbus
process for resolving the identified variances include:

   •	 Tier 1 - CCAS reconciled the summary disbursement and collection amounts reported on
      the CMR for each appropriation to the corresponding disbursements and collections
      reported on the SOT and SOI submitted by the DFAS centers, the General Services
      Administration, and the State Department. Although Tier 1 variances were rare, a
      common cause was Treasury adjustments that had been posted, but not included on the
      ALCs SOT. To resolve Tier 1 variances, DFAS Columbus personnel coordinated with
      the ALC that provided the inaccurate SOT or SOI.


                                              10 

    	 Tier 2 - According to DFAS Columbus, CCAS used an automated feed of for-self9 and
       transactions-by-others (TBO)10 to compile a repository of detailed transactions that
       support summary amounts reported on the SOTs and SOIs provided by the submitters.
       CCAS then reconciled the detailed transactions to the corresponding information on the
       SOTs and SOIs. There were several reasons Tier 2 variances occurred. Depending on
       the details that were missing, there were also several different actions DFAS Columbus
       personnel took to resolve the variances. A Tier 2 variance often occurred when a
       transaction on the SOT had a different date than the date on the voucher of disbursement.
       To correct this timing difference, DFAS Columbus personnel processed an adjustment to
       bring the dates into agreement. DFAS Columbus personnel had documented procedures
       for resolving Tier 2 variances.
    	 Tier 3 - CCAS reconciled the detailed transactions supporting the amounts on the SOTs
       and SOIs, and the CMR, to the corresponding transactions in the ODO accounting
       systems. In addition to identifying normal in-transit transactions, where the transaction
       has been reported by a disbursing office to the U.S. Treasury, but has not yet been
       received or processed by the applicable accounting office, the Tier 3 reconciliation also
       will discover transactions recorded with differing appropriations, voucher numbers, as
       well as other unsupported disbursement and collection differences. Similar to Tier 2
       variances, depending on the cause of the variance, there were a multitude of actions
       DFAS Columbus personnel took to resolve Tier 3 variances. DFAS personnel also had
       written procedures for resolving Tier 3 variances.

The flowchart in Figure 3 illustrates the CCAS reconciliation process.
                            Figure 3. CCAS Reconciliation Process

      CMR Summary
        Amounts
                                      All TBOs                All For-Self
                                                              Transactions

          Tier 1
                                              Automatic Feed


       SOTs/SOIs               Tier 2             Inventory File             Tier 3           Accounting Details
       from ALCs


                                                                Research and Resolve Variances

Source: DoD OIG


9
 A for-self transaction is created when a disbursing office makes a payment for an accounting office that reports to
the same DFAS center as the disbursing office.
10
   A TBO is created when a disbursing office makes a payment for an accounting office that reports to a DFAS
center other than the center to which the disbursing office reports. An example of a TBO is when a DFAS
Cleveland disbursing office makes a disbursement for a DFAS Indianapolis accounting office. A TBO is also is
created when a non-DoD Federal agency, such as the State Department, charges a payment to a DoD account.


                                                         11 

CCAS was an effective reconciliation tool for several reasons. DFAS Columbus maintained a
central repository of data that contained all of the transactions processed for the ODOs to which
it provided accounting support. This repository included the data for all of the open
appropriations from the time each ODO was integrated onto the CCAS reconciliation process.11
Because DFAS Columbus maintained this repository of information, it was able to efficiently
retrieve all of the ODO disbursements and collections. If an ODO were to request its FBWT
reconciliations for financial statement auditability purposes, DFAS Columbus would be able to
provide the reconciliations in a timely manner.

CCAS was also able to perform efficient and effective reconciliations because DFAS Columbus
allocated an adequate number of personnel to the process; all of whom had distinct tasks that
they were responsible for completing each month. From the time the CMR was provided to
DFAS Columbus until the Tier 3 variances were researched and resolved, DFAS Columbus had
documented procedures in place and specific personnel assigned to each step. This ensured that
the FBWT reconciliations performed for the ODOs were being performed in a consistent manner
and on a regular basis.

CCAS Maintained the Detailed Transactions
CCAS maintained the transactions used during the reconciliations, which allowed us to trace data
through each step of the FBWT reconciliation process. Specifically, using CCAS, DFAS
Columbus could readily pull any of the ODOs complete, transaction level reconciliations that
were performed each month since that specific ODO was integrated onto CCAS. Additionally,
since DFAS maintained a complete repository of data, each of these reconciliations included data
that is cumulative-from-inception of each appropriation as opposed to just monthly data, which
allowed the user to trace transactions from the inception of the appropriation. CCAS also
maintained all of the transactions that matched or did not match during the reconciliation
process, as well as an aging mechanism that identified transactions that needed to be researched
and resolved. Because CCAS maintained the detailed transactions, we were able to re-perform
the FBWT reconciliations for four appropriations and identify the same variances originally
identified by DFAS Columbus.

DFAS Columbus Must Reduce Risk of Inaccurate
Adjustments
Although DFAS Columbus implemented procedures to reconcile the ODO FBWT accounts at
the transactions level, there were still deficiencies in the process
that affected the reliability of the adjustments to the ODO              DFAS Columbus was
FBWT accounts. Specifically, CCAS reconciled to amounts on            classifying $16.1 million in
the CMR that may not have been complete or accurate. Of              DISA  variances as supported
additional concern, DFAS Columbus was classifying                        despite the variances
$16.1 million in DISA variances as supported despite the               remaining unresolved for
variances remaining unresolved for more than 4 years.                     more than 4 years.


11
 According to DFAS Columbus personnel, any disbursements or collections made on behalf of an ODO before
being integrated onto the CCAS reconciliation process are considered “Out of Scope,” and, therefore, unsupported
until those transactions flow through the CCAS process and are identified.


                                                       12 

An Incomplete and Inaccurate CMR Affects the Reliability of the CCAS
Reconciliations
CCAS reconciles the ODO disbursements and collections reported in the accounting system to
the disbursement and collection amounts that were reported on the CMR. Although DFAS
Indianapolis stated that it remediated approximately $10.2 billion of the $10.5 billion in CMR
deficiencies identified in DoD OIG Report No. D-2011-098, there was still a risk that the
remaining deficiencies would undermine the DFAS Columbus reconciliations and impede the
auditability of the ODO FBWT accounts. This would have a negative effect on the ability of an
ODO to obtain a financial statement opinion unless adequate compensating controls are
implemented.

DFAS Columbus personnel acknowledged that the CMR deficiencies may negatively affect the
completeness of the CCAS FBWT reconciliations they were performing for the ODOs.
However, DFAS Columbus personnel stated that because the U.S. Treasury did not report TI 97
transactions at the limit level, the CMR was the only option they had for reconciling the ODO
FBWT accounts. In addition, DFAS Columbus personnel stated that by performing FBWT
reconciliations at the transaction level, they were mitigating some of the risk. While we agree
that the transaction level reconciliations will alleviate some of the risk, the reconciliations will
not be effective in addressing unrecorded transactions that were improperly excluded from the
CMR and also not recorded in the accounting records. These risks will continue to exist until
DFAS Indianapolis resolves all of the deficiencies identified in DoD OIG Report
No. D-2011-098.

DFAS Columbus and DISA Should Establish Responsibility for
Remediating Aged Unmatched Disbursements
According to DFAS Columbus personnel, DFAS Columbus did not follow its normal procedures
when integrating DISA onto CCAS. As a result, there were $16.1 million in variances that
remained unresolved for more than 4 years; yet, DFAS Columbus still classified these variances
as supported. Under the normal procedures, when DFAS Columbus integrated an ODO onto the
CCAS FBWT reconciliation process, DFAS Columbus personnel stated that they would classify
the summary variance between the disbursements and collections reported in the ODO
accounting system and the disbursements and collections reported on the CMR as “Out-of-
Scope,” which DFAS Columbus personnel considered to be unsupported. However, when DISA
integrated onto the CCAS process in May 2007, DFAS Columbus personnel stated that DISA
provided a listing of transactions that they indicated would support the summary variances
between the disbursements and collections in DISA’s accounting system and the disbursements
and collections attributed to DISA on the CMR. Therefore, assuming that the transactions
provided by DISA personnel would be entered into the accounting system shortly after
integrating onto the CCAS process, DFAS Columbus
personnel informed us that they made the decision to           778 transactions, totaling $16.1
                                                                million, from the original file
classify the DISA variances as supported. However,
                                                            provided by DISA personnel in May
778 transactions, totaling $16.1 million, from the
                                                             2007 still had not been matched to
original file provided by DISA personnel in May 2007
still had not been matched to the accounting records.              the accounting records.




                                                 13 

We asked for the service provider agreement between DFAS Columbus and DISA to determine
which entity was responsible for researching and resolving the $16.1 million in unmatched
transactions. Neither DFAS nor DISA was able to provide an approved service provider
agreement that outlined which entity was responsible for the transactions integrated onto CCAS.
The Director, DFAS Columbus, and the Director, DISA, should develop a written agreement that
designates responsibility for remediating the              Neither DFAS nor DISA was able to
$16.1 million in transactions that have remained          provide an approved service provider
unmatched since May 2007. Once the responsible            agreement that outlined which entity
entity has been established, that organization should      was responsible for the transactions
take the necessary steps to research and resolve the
                                                                 integrated onto CCAS.
$16.1 million in unmatched transactions.

Conclusion
While DFAS Columbus was reconciling the ODO FBWT accounts on a regular and recurring
basis, DFAS Indianapolis did not develop adequate processes for performing complete,
transaction level reconciliations of the ODO FBWT accounts. Specifically, DFAS Indianapolis
did not develop processes for:

   •	 retrieving the detailed transactions supporting the CMR control totals in a timely manner,
   •	 matching the transactions supporting the CMR to the detailed transactions recorded in the
      accounting systems, and
   •	 researching and, if necessary, resolving the variances between the two sets of data.

Until DFAS Indianapolis develops its systems infrastructure, implements systemic processes,
and dedicates the resources necessary to support monthly transaction level reconciliation of the
ODO FBWT accounts, DFAS Indianapolis will not be able to support the adjustments it is
making to the FBWT account; which causes amounts reported on the ODO financial statements
to be unreliable. Unreliable financial statements will impede DoD’s ability to achieve audit
readiness for the SBR by the end of 2014, which is a vital step for the Department in meeting the
Congressional deadline for audit ready financial statements by 2017.

Recommendations, Management Comments, and
Our Response
1. We recommend that the Director, Defense Finance and Accounting Service
Indianapolis:

       a. Develop a systems infrastructure that will allow personnel to readily retrieve the
detailed transactions supporting all open appropriations that the Accounts Maintenance
and Control branch is responsible for accounting for and reconciling on the Cash
Management Report.




                                               14 

Defense Finance and Accounting Service Indianapolis Comments12
The Director, Defense Finance and Accounting Service Indianapolis, agreed with our
recommendation. Defense Finance and Accounting Service Indianapolis established a Fund
Balance with Treasury Development Team to develop a Fund Balance with Treasury tool.
Defense Finance and Accounting Service Indianapolis stated that the tool will warehouse all of
the detailed transactions supporting the open appropriations that the Accounts Maintenance and
Control branch is responsible for accounting for and reconciling on the Cash Management
Report. Defense Finance and Accounting Service Indianapolis stated that the planning and
prototype phases for the tool were completed and estimated that it will fulfill this
recommendation by June 30, 2014.

      b. Implement a systemic process for reconciling the transactions supporting the
amounts on the Cash Management Report to the transactions in the Other Defense
Organizations’ accounting systems on a monthly basis.

Defense Finance and Accounting Service Indianapolis Comments
The Director, Defense Finance and Accounting Service Indianapolis, agreed with our
recommendation and stated that the Fund Balance with Treasury tool will incorporate the
transactional data for the Other Defense Organizations’ supported by the Accounts Maintenance
and Control Branch. Defense Finance and Accounting Service Indianapolis stated that each
month, detailed transactions submitted to U.S. Treasury as well as the voucher level detail from
the Enterprise Resource Planning accounting system(s) will be uploaded to the Fund Balance
with Treasury tool. The tool will be utilized to retrieve the Other Defense Organizations detailed
transactional data for use in the monthly reconciliation. Defense Finance and Accounting
Service Indianapolis estimated that it will fulfill this recommendation by September 30, 2014.

       c. Assess the resources that will be needed to perform complete, transaction level
reconciliations for the Other Defense Organizations each month and fully dedicate those
resources to the reconciliation efforts.

Defense Finance and Accounting Service Indianapolis Comments
The Director, Defense Finance and Accounting Service Indianapolis, agreed with our
recommendation and stated that the Fund Balance with Treasury Initiative workgroup efforts
include assessing the resources that will be needed to perform complete, transaction level
reconciliations for the Other Defense Organizations each month. Defense Finance and
Accounting Service Indianapolis stated that upon deployment of the Fund Balance with Treasury
tool, it will dedicate the resources necessary to perform complete transaction level monthly
reconciliations for the Other Defense Organizations that the Accounts Maintenance and Control
branch is responsible for supporting. Defense Finance and Accounting Service Indianapolis
estimated that it will fulfill this recommendation by September 30, 2014.




12
  The comments provided by DFAS were signed by the Director, Enterprise Solutions and Standards. However, the
input used to compile the comments on the draft report was provided by the Director, DFAS Indianapolis.


                                                     15 

Our Response
The comments from the Director, Defense Finance and Accounting Service Indianapolis, were
responsive, and the actions met the intent of our recommendation. No further comments are
required.

2. We recommend that the Director, Defense Finance and Accounting Service Columbus,
coordinate with the Director, Defense Information Systems Agency, to develop a written
agreement that designates responsibility for remediating the $16.1 million in transactions
that have remained unmatched since May 2007. Once the responsible entity has been
established, that organization should take the necessary steps to research and resolve the
$16.1 million in unmatched transactions.


Defense Finance and Accounting Service Columbus Comments13
The Director, Defense Finance and Accounting Service Columbus, agreed with our
recommendation. Defense Finance and Accounting Service Columbus issued a memorandum to
the Defense Information Systems Agency stating that the Defense Finance and Accounting
Columbus Accounts Payable Operations will continue to work the May 2007 unmatched
transactions with support from the Defense Information Systems Agency CFE2 operations.
Defense Finance and Accounting Service Columbus stated that it resolved $13.0 million of the
$16.1 million in unmatched transactions.

Our Response
The comments from the Director, Defense Finance and Accounting Service Columbus, were
responsive, and the actions met the intent of our recommendation. No further comments are
required.




13
  The comments provided by DFAS were signed by the Director, Enterprise Solutions and Standards. However, the
input used to compile the comments on the draft report was provided by the Director, DFAS Columbus.



                                                     16 

Appendix. Scope and Methodology
We performed this financial audit from January 2010 to April 2012 in accordance with generally
accepted government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objective. Evidence was
obtained through the following.

       	 We reviewed DoD, U.S. Treasury, and DFAS guidance related to the reconciliation of
          the Fund Balance with Treasury general ledger account.

       	 We reviewed the FY 2010 ODO General Fund and the DoD Agency-Wide Financial
          Statements to determine what percentage of the assets reported on the Agency-Wide
          financial statements were attributable to the ODO FBWT line item.

       	 We interviewed DFAS Columbus and DFAS Indianapolis personnel to gain an
          understanding of their process for reconciling the ODO FBWT accounts.
          Specifically, we interviewed personnel responsible for retrieving the transactions to
          support the CMR, matching the transactions supporting the CMR to the transactions
          in the accounting systems, and researching and resolving the identified variances.

       	 Using the detailed transactions provided by DFAS Columbus, we re-performed the
          CCAS reconciliation process on four different appropriations (cumulative-from-
          inception) to determine whether the summary amounts reported on the CCAS
          reconciliation reports were adequately supported with detailed transactions. We then
          selected a nonstatistical sample of 20 disbursements from the matched data set and
          6 disbursements from the unmatched data set to determine whether DFAS Columbus
          could provide adequate documentation to support the individual disbursements used
          in our re-performance.

       	 We requested the original undistributed file that was provided to DFAS Columbus by
          DISA when DISA was integrating onto the CCAS process as well as a listing of the
          DISA transactions that still remained outstanding from the original DISA
          undistributed file. We then calculated the volume and the total amount of
          transactions that were on the original undistributed file as well as the volume and
          amount of transactions that still remained outstanding.

       	 We selected two different nonstatistical samples (June 2010 and January 2011) to test
          whether DFAS Indianapolis had procedures in place that would allow it to readily
          provide the detailed transactions to support the summary amounts on the CMR. Both
          samples consisted of 15 current-month appropriations and 6 cumulative-from-
          inception appropriations. Because DFAS Indianapolis was unable to provide the
          detailed transactions supporting the appropriations in a timely manner, we were
          unable to re-perform the reconciliations or test supporting documentation.



                                                17 

       	 We selected a nonstatistical sample of five ODO appropriations reconciled by AM&C
          at DFAS Indianapolis. We then re-performed the FBWT reconciliation process for
          the five appropriations to determine whether AM&C was performing adequate
          reconciliations for the ODO.

Use of Computer-Processed Data
We relied on computer-processed data consolidated by CCAS. DFAS Columbus uses CCAS to
reconcile the ODO FBWT accounts. To test the reliability of CCAS, we selected a nonstatistical
sample of four appropriations reconciled by CCAS; gathered the necessary detail files from
DFAS Columbus for each of the appropriations; re-performed the Tier 1, Tier 2, and Tier 3
reconciliations for each of the appropriations; and tested the sample to determine whether DFAS
Columbus could provide adequate documentation to support the individual disbursements used
in our re-performance. From our analysis of the CCAS reconciliation process and the
documentation supporting the detailed transactions that CCAS was using, we determined that the
computer-processed data was reliable for the purpose of our audit objective.
To test the adequacy of the amounts reported on the CMR, we also reviewed detailed
transactions that DFAS Indianapolis retrieved from several field-level systems. However,
because DFAS Indianapolis could not provide the detailed transactions supporting the CMR in a
timely manner and also did not have a systemic process in place for performing complete
reconciliations of the ODO FBWT accounts, we did not rely on the data provided by DFAS
Indianapolis.

Prior Coverage
During the last 5 years, the DoD OIG has issued one report discussing reconciliation of the ODO
FBWT accounts. Unrestricted DoD OIG reports can be accessed at
http://www.dodig.mil/audit/reports.

DoD OIG
DoD OIG Report No. D-2011-098, “Defense Finance and Accounting Service Needs to Improve
Controls Over the Completeness and Accuracy of the Cash Management Report,”
August 15, 2011




                                              18 

Defense Finance and Accounting Service Comments


                                                   The comments
                                                   provided by the
                                                   Defense Finance and
                                                   Accounting Service
                                                   (DFAS) were signed
                                                   by the Director,
                                                   Enterprise Solutions
                                                   and Standards.
                                                   However, the input
                                                   used to compile the
                                                   comments on the
                                                   draft report was
                                                   provided by the
                                                   Director, DFAS
                                                   Indianapolis, and the
                                                   Director, DFAS
                                                   Columbus.




                    Click to add JPEG file




                                 19
Management Comments to Draft Report ,jOefcnse Finan ce and Accounting Service Needs
to Impro\'C th e Process for Recon ciling th e Other Oefense Organizations' Fu nd Ballmcr
with Treasury" , Dated April 19, 2012 , Projec t No. D2010-0000FA-009 7.001


OFAS Indianapolis Comments:

General Managemcnt Co mm ents
OFAS agrees that obtaining the universe of transactions during the audit was a challenge and the
requested transactions could not be retrieved in a timely manner. This condition was reported as
a control dcficiency in our annual Federal Managers' financial Integrity Act review. Therefore.
DFAS-Indianapolis has established a Fund Balance with Trea'iury (FBWT) Initiative workgroup
to address the Other Defensc Organ izations' (ODOs' ) FBWT reconciliation proccsses. Thi s
workgroup consists of representatives from Accounting Operations, Enterprise Readiness Office
and Audit Readiness Directorate (AuR D). The workgroup is addressing the Fund Balance with
Treasury reconciliation in a three phase process:

Phase I - Manual Reconciliation: Reconcile a test symbol to dcvelop functional requirements to
determine needs for automated solution.

Phase 11 - Automated Solut ion: Work with Infonnat ion Technology (IT) to devclop the DFAS
Fund Balance with Treasury (DFBT) tool for Anny General Fund and Other Defense
Organi7.ations (OOOs).

Phase 111 - Process Development: Identify the location and staffing nceded to support the
monthly DFIlT reconciliation and subsequent research of items.
                               Click to add JPEG file
We recommend th at th e Di rector, Defense Finance and Accounting Sen'ice Indi anapolis :

llccommendation I .. : Develop a systems infrastructure that wi ll allow personnel to readily
rctrieve the detailed transactions supporting all open appropriations that the Accounts
Maintenance and Control brunch is responsible fo r accounting for and reconci ling on the Cash
Management Report.

i\'I ;lI1agcment Comm ents: Concur. DFAS establ ished a FBWT Dcve lopment Team to develop
the OFIlT tool. The tool will warehousc all Enterprise Resource Planning Systems (ERP)
detailed transactions support ing open appropriations that the Accounts Maintenance and Control
Branch is responsiblc for accounting for and reconciling on the Cash Management Rcport. Each
month . detailed transactions submitted to US Treasury Government Wide Accounting (GW A) as
well as the voucher level detai l from the accounting system(s) will be uploaded to the DFBT
tool. This tool will be utilized to retrieve detai led transactional data for the monthly
reconcil iation. The planning and prototype phases for the tool have been completed. All
Treasury and Trial Balance data inputs havc been defined. We are currently developins the
documentation for the functio nal requirements and project completion of the tool for 3' quurtcr
2014.




                                                           20
£stirn :Hcd Complction Dale: June 30. 2014


Recomm cnd ati on I b: Implement a systemic process for reconciling the transactions supporting
the amounts on the Cash Management Report 10 the transactions in the Olher Defense
Organizations' accounting systems on a monthly basis.

M;mu gcmc nt Co mmcnts : Concur- The DFBT tool will incorporate the transactional data for
the ODOs' supported by the Accounts Maintenance and Control Branch. Each month detailed
transactions submitted to US Treasu ry (GWA) as well as the voucher level detail rrom the ERP
accounting system(s) will be uploaded to the DFBT tool. The data residing in orBT tool will be
from Initial Operating Capability forward. This tool will be utilized to retrieve the OOOs'
detailed transactional data for use in the monthly reconciliation.

C urrent Estiml1t cd Com plclion Date: September 30, 2014.


Rccommcndation Ic: Assess the resources that will be needed 10 perform complcte, Imnsaction
level reconciliations for the Other Defense Organizations each month and fully dedicate those
resources to the reconciliation efTorts.

Mll nl, ccmcnl Comm cnt s: Concur - The OFAS FBWT Initiative workgroup cfforts include
assessing the resourccs that will be needed to perform complete, transaction levcl reconciliations
for 0005 monthly. Upon dep loymcnt o r the DFBT tool, OFAS will dedicate the resources
necessary to pcriorm completc transaction level monthly reconciliations fo r ODOs thc Accounts
Maintcnance and Control Branch urc responsible for supporting.
                                Click to add JPEG file
Es limllt cd C ompletion Dnle: September 30. 20 14.


Colum hu s commcn t's :

Wc rccommend Ihal the Director, Defcn se Fimtnce and Aecounling Scrvicc Columbus :

Rccomm endllti on 2: Coordinatc with the Director, Defcnse Information Systems Agency to
dcvelop a written agrcement that designates responsibly for remediating thc $16.1 mill ion in
transactions that havc rcmained unmatched since May 2007. Once thc responsible entity has
been estilbJish that organization should takc Ihe necessary steps to research and resolve the $ 16.1
million in unmatched transactions.

Ma na gemcnt Contin ent s: Concur. Defense Financc and Accounting Service Columbus
(DF AS-CO) have issued a mcmorandum to Defense Infomlation Systems Agency ( DlSA) thai
OF AS-CO Account I)ayable Operations will conti nue to wo rk the May 2007 llllmatched
transactions with support from DISA CFE2 operations. The unmatched transactions have been
worked like any other undistributed Tier 3 Cohlmbus Cash Accountability System variance. The




                                                              21
abso lute value as o r August 20 I I was S 16.1 mi ll ion and $13.0 mi llion has been resolved, leavi ng
a bnlanceofS3.1 million.

ESlimntcd Co mnletion Ilate: Th is recommendation is consider closed




                                 Click to add JPEG file




                                                               22
